No.

In the

Jiuprome (Eomri of ti\z ffinxtzb States
IN RE:
ASHTON R. O’DWYER, JR., PETITIONER
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI
Ashton R. O’Dwyer, Jr.
pro se
1116 Monticello Avenue
Jefferson, LA 70121
arodjrlaw@aol. com
(50k) 812-9185

CURRY & TAYLOR ♦ (202) 350-9073

I

QUESTION(S) PRESENTED
1.
Whether, prior to his participating in
rendering decision in this reciprocal attorney disciplinary
case, the failure of a Panel Member to disclose to Respondent
conflicts of interests due to the Panel Member’s long­
standing direct, extensive and substantial associations and
relationships with the State of Louisiana, which had
disbarred Respondent, requires vacature of the Panel’s
decision pursuant to Commonwealth Coatings v.
Continental Cos., 393 U.S. 145 (1968), and remand for
consideration of the case by a fair and impartial Panel, devoid
of any disqualifying conflicts of interests?
2.
Whether the three-Judge Panel below could
possibly have discharged its Selling v. Radford, 243 U.S. 49
(1917) obligation to perform “an intrinsic consideration of the
state record” in this reciprocal attorney disciplinary case,
when Respondent’s Exhibits, which were critical to
understanding the merits of Respondent's Affirmative
Defenses to disbarment by the State, were never
transmitted to the U.S. Court of Appeals for the Fifth
Circuit by the Louisiana Supreme Court, and remain
“missing” entirely from the record?
3.
Whether under Williams v. Pennsylvania,
136 S.Ct. 1988 (2016), all of the original Panel Members
should have been disqualified from deciding Respondent’s
“Motion to Re-Open Case, etc.,” and his “Motion for
Reconsideration,” which had put the entire Panel “on notice
of’ undisclosed conflicts ofinterests by their “Brother” Panel
Member?
4.
Whether the Court should exercise its
inherent equitable power to vacate reciprocal discipline

II

imposed against Respondent, a lawyer, because an Article
III Federal Appellate Judge committed judicial misconduct,
perhaps unwittingly, by failing to disclose conflicts of
interests to Respondent, which should have disqualified the
Judge from participating in the case?

Ill

PARTIES TO THE PROCEEDING
No other parties than listed in the caption

STATEMENT OF RELATED CASES
1) In re: Ashton R. O’Dwyer, Jr., Case No. 18-98009, on
the docket of the United States Court of Appeals for the
Fifth Circuit. The Fifth Circuit Per Curiam Opinion of
May 31, 2019 is set forth in the Appendix hereto. (App.
10-13.)
The Fifth Circuit Order denying Respondent’s “Motion to
Reopen the Case” due to non-disclosure of conflicts of
interests by a Panel Member is set forth in the Appendix
hereto. (App. 108.)
The Fifth Circuit Order denying Respondent’s Motion for
Reconsideration is set forth in the Appendix hereto.
(App. 120.)
2) In re: Ashton R. O’Dwyer, Jr., Case No. 16-B-1848
before the Louisiana Supreme Court, in which an Order of
Permanent Disbarment issued on March 15, 2017, is
reported at 221 So.3d 1 (La. 2017).
3) In re: Ashton R. O’Dwyer, Jr., Docket No. 10-DB-006
before the Louisiana Attorney Disciplinary Board, which
recommended disbarment to the Louisiana Supreme
Court, is unreported

IV

TABLE OF CONTENTS
Page
Question(s) Presented......

i

Parties to the Proceeding

iii

Statement of Related Cases

iii

Table of Authorities

vi

Opinions Below

l

Jurisdiction

l

Relevant Provisions Involved

2

Statement

8

Reasons for Granting the Petition

27

Conclusion

45

Appendix
1) Respondent’s Court Authorized (by Judge Costa)
Post-Hearing Written Submission and Incorporated
Report on Respondent’s Review of What was
Represented to Him as the Louisiana Supreme
Court Record, filed on December 7, 2018................

la

2) Circuit Court Opinion of May 31, 2019

10a

3) Respondent’s Motion to Re-Open Case, etc., filed
on November 17, 2020...............................................

14a

4) Respondent’s Declaration Under Penalty of
Perjury, filed on November 17,2020.........................

34a

5) Exhibit No. 1 to Respondent’s Declaration Under
Penalty of Perjury (namely Respondent’s Motion to
Unseal the Record, filed August 30, 2019) ...............

58a

V

6) Respondent’s Certificate of Interested Persons
and Entities, filed on November 17, 2020..............

100a

7) Circuit Court Order denying Respondent’s
Motion to Re-Open Case, etc. (Order signed on
November 18, 2020)...............................................

108a

8) Respondent’s Motion for Reconsideration, filed
on December 2, 2020 ............................................

109a

9) Circuit Court Order denying Respondent’s Motion for Reconsideration (Order signed on
December 9, 2020)............................. :...................

120a

VI

TABLE OF AUTHORITIES
Page
Cases
BP EXPLORATION & PRODUCTION INCORPORATED
v. Claimant id 100246928,920 f.3d 209 (5th
CIR.2019)...................................................................
19,40
Commonwealth Coatings v. Continental
CAS., 393 U.S. 145(1968)........................................... 27, 30,34
In re Hearst Newspapers, L.L.C., 641 F3d 168,
179 (5TH CIR. 2011)....................................................
19
In re High Sulfur Content Gasoline Prods.
LlAB. LITIG., 517 F.3D 220,230 (5TH ClR. 2008)....
20
IN re Jones, 275 F. APP'X. 330,331 (5th Cir. 2008).
17
In re Murchison, 349 U.S. 133,136,75 S.Ct. 623,
L.ED. 942(1955)........................................................
37
In re Wilkes, 494 F2d 472 (5th Cir. 1974).............. 14,15,16
Liteky v. United States, 510 U.S. 540 (1994).......
38
Peters v. Kiff, 407 U.S. 495,502 (1972)...................
38
Positive Software Solutions, Inc. v. New
Century Mortgage Corporation, 376 F.3d
278 (5TH Cir. 2007)...................................................
38
Puckett v. United States, 556 U.S. 129,141,129
S.CT. 1423,173 L.ED.23 266 (2009)..........................
41
Richmond Newspapers, Inc. v. Virginia, 448
U.S. 555,595(1980).................................
20
Selling v. Radford, 243 U.S. 46 (1917)
11,12,14,17
Williams v. Pennsylvania, 136 S.Ct. 1899 (2016)
37,41
Statutes
28
28
28
28
28

U.S.C.
U.S.C.
U.S.C.
U.S.C.
U.S.C.

§455.........
§455(a)....
§455(b)(l)
§1254(1)...
§2101(c)...

7
30
29
1
1

Vll

Rules
FRAP 46..................................
FRAP 46(B).............................
Supreme Court rule 13(3)

10
9
1

Other Authorities
Canon 2 of the Code of Conduct for United States
Judges ............................................................................
COMMENTARY to Canon 2 ......................................
Canon 3 of the Code of Conduct for United States
Judges ...........................................................................
COMMENTARY to Canon 3A(3)...............................

Canon 3(C)(1)......................................................
Canon 3(C)(1)(a)...................................................
Canon 3(C)(1)(b)............................. .....................
Canon 3(C)(1)(c)...................................................
Canon 3(C)(l)(d)(i through iii)......................................
Canon 3(C)(1)(e)............................................................
Former Canon 33 ..........................................................
Elizabeth A. Murphy, Note, Standards of
Arbitration Impartiality: How Impartial Must They
Be? 1996 J. DISP. RESOL. 463, 470...........................
John Leubsdorf, Theories of Judging and Judge
Disqualification, 62 N.Y.U.L. Rev. 237, 245 (1987)

2
3
4
7
28
29
29
29
29
29
32

33
36

1
OPINIONS BELOW
The unreported four-page Per Curiam Opinion of
the three-Judge Circuit Court Panel is dated May 31,
2019, and is reprinted in full at Appendix pages 10
through 13.
The unreported one-page Circuit Court Order of
November 18, 2020, which is the subject of this writ
application, is reprinted in full at Appendix page 108.
The unreported one-page Circuit Court Order of
December 9,2020, also a subject of this writ application, is
reprinted in full at Appendix page 120.
JURISDICTION
The Order of the U.S. Court of Appeals for the
Fifth Circuit for which this Writ of Certiorari is sought is
dated November 18,2020.
Respondent’s Motion for Reconsideration of that
Order was filed within 14 days of November 18, 2020,
namely on December 2,2020.
Respondent’s Motion for Reconsideration was
denied by the Fifth Circuit on December 9,2020.
This Petition for Writ of Certiorari is filed within
the time allowed by 28 U.S.C. §2101(c) and Supreme
Court Rule 13(3), namely within 90 days of November 18,
2020.
This Court has jurisdiction pursuant to 28 U.S.C.
§1254(1).

2
RELEVANT PROVISIONS INVOLVED
U.S. Constitution, Fifth Amendment
No person shall be held to answer for a
capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except
in cases arising in the land or naval forces, or in the
Militia, when in actual service in time of War or
public danger; nor shall any person be subject for
the same offence to be twice put in jeopardy of life
or limb; nor shall be compelled in any criminal case
to be a witness against himself, nor be deprived of
life, liberty, or property, without due process of
law; nor shall private property be taken for public
use, without just compensation.
Canon 2 Of The Code Of Conduct For United States
Judges
Canon 2: A Judge Should Avoid Impropriety and the
Appearance of Impropriety in all Activities.
A)

Respect for Law. A judge should respect and
comply with the law and should act at all times in a
manner that promotes public confidence in the
integrity and impartiality of the judiciary.

B)

Outside Influence. A judge should not allow family,
social, political, financial, or other relationships to
influence judicial conduct or judgment. A judge
should neither lend the prestige of the judicial
office to advance the private interests of the judge
or others nor convey or permit others to convey
the impression that they are in a special position to
influence the judge.

3

COMMENTARY to Canon 2
Canon 2A. An appearance of impropriety occurs
when reasonable minds, with knowledge of all the
relevant circumstances disclosed by a reasonable
inquiry, would conclude that the judge’s honesty,
integrity, impartiality, temperament, or fitness to
serve as a judge is impaired. Public confidence in
the judiciary is eroded by irresponsible or
improper conduct by judges, including harassment
and other inappropriate workplace behavior. A
judge must avoid all impropriety and appearance
of impropriety. This prohibition applies to both
professional and personal conduct. A judge must
expect to be the subject of constant public scrutiny
and accept freely and willingly restrictions that
might be viewed as burdensome by the ordinary
citizen. Because it is not practicable to list all
prohibited acts, the prohibition is necessarily cast
in general terms that extend to conduct by judges
that is harmful although not specifically mentioned
in the Code. Actual improprieties under this
standard include violations of law, court rules, or
other specific provisions of this Code.
A judge should avoid lending the prestige of
judicial office to advance the private interests of
the judge or others. For example, a judge should
not use the judge’s judicial position or title to
gain advantage in litigation involving a friend or
a member of the judge’s family.

4
Canon 3: A Judge Should Perform the Duties of
the Office Fairly, Impartially and Diligently.
The duties of judicial office take precedence over
all other activities. The judge should perform
those duties with respect for others, and should
not engage in behavior that is harassing,
abusive, prejudiced, or biased. The judge should
adhere to the following standards:
A)
Adjudicative Responsibilities.
1)

A judge should be faithful to, and
maintain professional competence in, the
law and should not be swayed by partisan
interests, public clamor, or fear of
criticism.

2)

A judge should accord to every person
who has a legal interest in a proceeding,
and that person’s lawyer, the full right to
be heard according to law. Except as set
out below, a judge should not initiate,
permit,
or
consider
ex
parte
communications or consider other
communications concerning a pending or
impending matter that are made outside
the presence of the parties or their
lawyers. If a judge receives an
unauthorized ex parte communication
bearing on the substance of a matter, the
judge should promptly notify the parties
of the
subject matter of the
communication and allow the parties an
opportunity to respond, if requested.

5

B)

Disqualification.

1)

A judge shall disqualify himself or herself in
a proceeding in which the judge’s
impartiality
might
reasonably
be
questioned, including but not limited to
instances in which:
a)

the judge has a personal bias or
prejudice concerning a party, or
personal knowledge of disputed
evidentiary facts concerning the
proceeding;

b)

the judge served as a lawyer in the
matter in controversy, or a lawyer
with whom the judge previously
practiced law served during such
association as a lawyer concerning
the matter, or the judge or lawyer
has been a material witness;

c)

the judge knows that the judge,
individually or as a fiduciary, or the
judge’s spouse or minor child
residing in the judge’s household,
has a financial interest in the subject
matter in controversy or in a party
to the proceeding, or any other
interest that could be affected
substantially by the outcome of the
proceeding;

d)

the judge or the judge’s spouse, or a
person related to either within the

6

third degree of relationship, or the
spouse of such a person is:

C)

i)

a party to the proceeding, or
an officer, director, or trustee
of a party;

ii)

acting as a lawyer in the
proceeding; or

iii)

known by the judge to have
an interest that could be
substantially affected by the
outcome of the proceeding.

e)

the judge
has
served
in
governmental employment and in
that capacity participated as a judge
(in a previous judicial position),
counsel, advisor, or material witness
concerning the proceeding or has
expressed an opinion concerning the
merits of the particular case in
controversy.

f)

“proceeding” includes pretrial, trial,
appellate review, or other states of
litigation.

Remittal of Disqualification. Instead of
withdrawing from the proceeding, a judge
disqualified by Canon 3C(1) may, except in the
circumstances specifically set out in subsections (1)
through (e), disclose on the record the basis of
disqualification. The judge may participate in the

7
proceeding if, after that disclosure, the parties and
their lawyers have an opportunity to confer
outside the presence of the judge, all agree in
writing or on the record that the judge should not
be disqualified, and the judge is then willing to
participate. The agreement should be incorporated
in the record of the proceeding.
COMMENTARY to Canon 3A(3)
The duty under Canon 2 to act in a manner that
promotes public confidence in the integrity and
impartiality of the judiciary applies to all the
judge’s activities, including the discharge of the
judge’s
adjudicative
and
administrative
responsibilities. The duty to be respectful includes
the responsibility to avoid comment or behavior
that could reasonably be interpreted as
harassment, prejudice or bias.
28 United States Code, Section 455 - Disqualification
of Justice, Judge, or Magistrate Judge
a)

Any justice, judge, or magistrate judge of
the United States shall disqualify himself
in any proceeding in which his
impartiality
might
reasonably
be
questioned.

b)

He shall also disqualify himself in the
following circumstances:

1)

Where he has a personal bias or prejudice
concerning a party,
or
personal

8

knowledge of disputed evidentiary facts
concerning the proceeding;
2)

Where he has served in governmental
employment and in such capacity
participated as counsel, adviser or
material
witness
concerning
the
proceeding or expressed an opinion
concerning the merits of the particular
case in controversy; or

3)

Where he has served in governmental
employment and in such capacity
participated as counsel, adviser or
material
witness
concerning
the
proceeding or expressed an opinion
concerning the merits of the particular
case in controversy.
STATEMENT

This case involves a Federal Appeals
Court Judge, who, for reasons unknown, failed to
disclose to Respondent prior to his participation in
rendering decisions in the case, numerous conflicts of
interests arising out of the Judge’s long-standing
associations and relationships with the State of
Louisiana, which had wrongfully disbarred Respondent.
Had the conflicts of interests been disclosed to
Respondent, then Respondent would have immediately
sought the Judge’s recusal and disqualification.
On March 16, 2017, culminating an eight-yearlong battle with his post-Katrina nemesis, the State of
Louisiana, over Respondent’s ability to practice law in
the State, the Louisiana Supreme Court issued an

:

9
Order of Permanent Disbarment, stripping Respondent
of his law license (App. 3-4, 35-36, 45-46, 54, 69-70.)
Thereafter, on October 26, 2017, the Chief Judge
of the U.S. Court of Appeals for the Fifth Circuit, the
Honorable Carl E. Stewart, issued a “Show Cause
Order,” which directed:
“On March 15, 2017 the Supreme Court of
Louisiana issued an order of permanent
disbarment entitled “In Re: Ashton R.
O’Dwyer.” At the direction of the Chief Judge,
IT IS ORDERED that Ashton R. O’Dwyer, Jr.’s
name shall be removed from the roll of attorneys
admitted to practice in this court effective 35
days from the date of this order unless the Court
receives prior to that date a response from Mr.
O’Dwyer showing case why his right to practice
before this Court should not be terminated.
See FRAP 46(b).”
Respondent complied with Judge Stewart’s
Order by submitting a number of Exhibits and letter
briefs, explaining in detail Respondent’s assertion that
he had been disbarred by a corrupt Louisiana Attorney
Disciplinary System in retaliation and retribution for
his having exposed public corruption in the “Victims of
KATRINA” litigation in the U.S. District Court for the
Eastern District of Louisiana, Civil Action No. 05-4182.
The plaintiff lawyer Cabal to whom the corrupt
presiding Federal Judge had handed control and
management of the massive KATRINA litigation
secretly represented the State of Louisiana, but kept
that representation secret for two (2) years, but with
full knowledge of the secret representation by the
presiding Judge. But when the USA was determined to

10
be immune, “the Class” of KATRINA’s innocent
victims could not recover a dime in damages, because
the plaintiff lawyer Cabal did not sue their “secret”
client, the State.
Nothing further was heard from Judge Stewart
until September 27, 2018, when he issued the following
Order:
“ORDER
After consideration of the response of attorney
Ashton R. O’Dwyer, Jr., to the show-cause order
issued by the clerk on October 26, 2017, I have
determined that the matter should be referred
to a panel of the court. The panel, which shall
consist of Judges Gregg J. Costa, Don R. Willett,
and Stuart Kyle Duncan, is empowered to
conduct a hearing or hearings, and to act for the
court in resolving all issues raised by the showcause order and the response.”
On October 5, 2018, the Clerk of Court informed
Respondent as follows:
“You responded to this court’s order to show
cause why you should not be removed from the
roll of attorneys admitted to practice in this
court as a result of the March 15, 2017
disbarment order entered by the Supreme Court
of Louisiana. You requested a hearing pursuant
to FRAP 46.
“Your hearing, in the form of oral argument,
will be held before a panel of this court on
December 4, 2018, at 4:00 p.m. (CST) in the

11
West Courtroom on the second floor of the John
Minor Wisdom Court of Appeals Building, 600
Camp Street, New Orleans, Louisiana. You may
be represented by counsel. The hearing will be
recorded.
“The sole issue for consideration is whether the
United States Court of Appeals for the Fifth
Circuit should impose upon you reciprocal
discipline based on the order of the Supreme
Court of Louisiana. See Selling v. Radford, 243
U.S. 46 (1917).
“This court will attempt to obtain a certified
copy of the record of the disciplinary proceeding
directly from the Supreme Court of Louisiana,
and will notify you if it is necessary for you to
supplement that record in any way.
“Please direct any questions to Suzanne Butler
via email to Suzanne_Butler@ca5.uscourts.gov
or by telephone at (504) 310-7768.”
In Selling v. Radford, 243 U.S. 46 (1917), this
Court considered the effect of disbarment from state
court in a federal disbarment action, finding that
although admission to a state bar may be a predicate to
admission to a federal bar, a state disbarment order
does not automatically bind a federal court. This Court
reconciled the interest in judicial economy with the
“quasi-criminal nature” of a disbarment proceeding and
concluded that a state disbarment gives rise to a
rebuttable presumption that an attorney lacks the
“private and professional character” to remain a
member of the federal bar, saying:

12
“...We are of opinion that we should recognize
the condition created by the judgment of the
state court unless, from an intrinsic
consideration of the state record, one or all of the
following conditions should appear: 1) that the
state procedure from want of notice or
opportunity to be heard was wanting in due
process; 2) that there was such an infirmity of
proof as to facts found to have established the
want of fair private and professional character as
to give rise to a clear conviction on our part that
we could not consistently with our duty accept as
final the conclusion on that subject, or 3) that
some other grave reason existed which should
convince us that to allow the natural
consequences of the judgment to have their
effect would conflict with the duty which rests
upon us not to disbar except upon the conviction
that, under the principles of right and justice, we
were constrained so to do.” 243 U.S. at 50 and 51.
In other words, this Court in Selling v. Radford
spelled out very specific exceptions to the imposition of
reciprocal discipline imposed by State disbarment
proceedings, namely (1) want of due process, (2)
unwarranted conclusions not supported by facts, and (3)
other grave and sufficient reasons that would result in
grave injustice or fundamental unfairness, all of which
were present in Respondent’s case. Indeed,
Respondent averred that if the exceptions to reciprocal
discipline did not exist in his case, then they would
never exist anywhere, at any time, in any case. (App.
61, 81-85, 95-96.)
On October 10, 2020, Respondent was advised by
the Fifth Circuit as follows:

13
“Thank you for your email of earlier today.
“We are in the process of making arrangements
to obtain the complete record of your
disciplinary proceeding from the Supreme Court
of Louisiana. The state court record, including
documents from the Louisiana Disciplinary
Board and the Eastern District of Louisiana
proceedings, as well as your communications
with this court and documents you have
provided the court, will be in the record of this
court’s disciplinary proceeding for the panel.”
On November 20, 2018, one of Respondent’s
Panel members, Judge Costa, issued the following
Order:
“ORDER
IT IS ORDERED that the petitioner’s
motion to visit the Court in order to review the
contents of the case record, including the
documents that have been sent to the Fifth
Circuit by the Louisiana Supreme Court, is
GRANTED.
Our Court’s record is the electronic
record onPACER and petitioner can access the
record via PACER. Petitioner may look at the
paper record that this court received from the
Louisiana Supreme Court. Arrangements will
have to be made with the U.S. Marshall’s Office
for petitioner to be escorted, and a date and
location for him to review the Louisiana record
will be coordinated with the Clerk’s Office, the

14
Circuit Mediation and Judicial Support Office
and the U.S. Marshall’s Office.”
As of that date, Respondent had submitted to
the Fifth Circuit a total of 25 Exhibits, in addition to
letter briefs, in compliance with Chief Judge Stewart’s
Show Cause Order. And on November 28, 2018, in
accordance with the permission granted by Judge
Costa, Respondent inspected “the paper record that
this court received from the Louisiana Supreme Court”
in order to verify whether the entire record in the state
disciplinary proceedings (Docket No. 10-DB-006 before
the Louisiana Attorney Disciplinary Board, and Case
No. 16-B-1848 before the Louisiana Supreme Court)
been transmitted to the Fifth Circuit by the Louisiana
Supreme Court,
Respondent’s Exhibits in the state
proceedings were critical to Respondent’s defenses to
his disbarment, and Respondent needed to verify that
his Exhibits from the state proceedings were available
to the Fifth Circuit for its Selling v. Radford mandated
“intrinsic consideration of the state record.” 243 U.S. at
51.
In the Fifth Circuit, a reviewing Court’s
obligation under Selling v. Radford was enunciated by
Judge Wisdom in the 1974 case of In re Wilkes, 494 F2d
472 (5th Cir. 1974), as specifically including the
following:
“Wilkes is on solid ground in asserting that
disbarment by federal courts does not
automatically flow from disbarment by state
courts. Federal courts must ‘determine for
ourselves the right to continue to be a member
of...[the federal Bar]’ after giving ‘intrinsic

15
consideration’ to the underlying record.
(Citations omitted).” 494 F.2d at 474-475.
Unfortunately, all of Respondent’s Exhibits in
the state disciplinary proceedings were entirely
“missing in action,” just as Respondent had feared they
would be, meaning that it was impossible for
Respondent’s Panel to give “intrinsic consideration” to
the woefully incomplete state record from the
Louisiana Supreme Court, and therefore unable to
“determine for ourselves [Respondent’s] right to
continue to be a member of’ the Fifth Circuit Bar.
Oral argument in the Fifth Circuit before a
Panel consisting of Judges Costa, Willett and Duncan
proceeded on December 4, 2018. During oral argument,
Respondent was granted leave to submit one additional
written submission to the Court. This was accomplished
on December 7, 2018 in “Respondent’s CourtAuthorized Post-Hearing Written Submission and
Incorporated Report on Respondent’s Review of What
Was Represented to Him as the Louisiana Supreme
Court Record,” (App. 1-9), which addressed the fact
that the purported “state record,” which the Louisiana
Supreme Court claimed to have sent to the Fifth
Circuit, did not contain Respondent’s Exhibits in the
state proceedings, which were critical to Respondent’s
defenses to disbarment. (App. 4-6, 8, 55.) The fact that
Respondent’s Exhibits were “missing,” and not
included in the state record, rendered it impossible for
Respondent’s Fifth Circuit Panel to have conducted the
“intrinsic consideration of the state record” mandated
by Selling v. Radford.
Other very serious shortcomings in “the record”
transmitted to the Fifth Circuit by the Louisiana
Supreme Court also were addressed by Respondent in

16
his December 7, 2018 Post-Hearing Written Submission
(App. 6-9, 55), which also rendered it impossible for the
Panel to have given “intrinsic consideration of the
underlying state record.” Id.
Respondent heard nothing further from the
Fifth Circuit until May 31, 2019, when his Panel issued
a three-page Per Curiam Opinion, which reflected:
“O’Dwyer seeks to relitigate his underlying
discipline in the United States District Court for
the Eastern District of Louisiana that led to his
state disbarment. 221 So.3d at 19 (concluding
that O’Dwyer engaged in a ‘panoply of serious
professional violations’ based on his conduct in
New Orleans Federal Court). But our task in
considering reciprocal discipline is much more
limited. We did not review as an original matter
the allegations that resulted in disbarment.
Instead we must give effect in our Court to the
state
disbarment
unless
‘an
intrinsic
consideration’ of the State Court record reveals
that:
1.

The state procedure, from want of notice
or opportunity to be heard, was wanting
due process,

2.

[TJhat there was such an infirmity of
proof as to facts found to have established
the want of fair private and professional
character as to give rise to a clear
conviction on our part that we could not,
consistently with our duty, accept as final
the conclusion on that subject, or

3.

17
[T]hat some other grave reason existed
which should convince us that to allow the
natural consequences of the judgment to
have effect would conflict with the duty
which rests upon us not to disbar except
upon the conviction that, under the
principles or right and justice, we were
constrained so to do.

Selling v. Radford, 243 U.S. 46, 51 (1917); see also In re
Jones, 275 F. App’x. 330, 331 (5th Cir. 2008) (applying
the Selling factors).” (App. 11.)
Ignoring for a moment the inherent
contradiction in the Panel’s assertion that “we do not
review as an original matter the allegations that
resulted in disbarment” when contrasted with the
necessity of having to perform “an intrinsic
consideration of the state record” to determine inter
alia “an infirmity of proof as to facts found,”
Respondent reasonably concluded that his substantive
defenses to disbarment had not been considered at all
by the Panel, which simply “rubber-stamped” his
wrongful disbarment by the Louisiana Supreme Court.
This conclusion by Respondent is reasonably supported
by the fact that the Panel’s Per Curiam Opinion failed
to address, even in cursory fashion, any of
Respondent’s Affirmative Defenses to his disbarment.
See Respondent’s “Motion to Unseal the Record,”
which was filed below on August 30, 2019, (App. 56, 6976,85-99.)
In addition, the Panel made a series of very
serious errors in its Per Curiam Opinion, which should
have been readily apparent to anyone who had
performed a competent intrinsic consideration of the

18
state record, including the following false “findings,”
which could even be called “malicious”:
“Having considered the record of the state
proceeding, O’Dwyer’s numerous responses to
the show cause order, and his oral argument, we
conclude that the disbarment findings do not
suffer from the substantial infirmities needed for
us to decline to follow the same course the state
court took. The attacks O’Dwyer levels against
the state court findings at most argue for a
different interpretation of his conduct in New
Orleans federal court; he cannot show that the
contrary view of the Supreme Court of
Louisiana - and the federal district court for that
matter - lacked evidence. To take just one
example of serious misconduct, there was strong
support for the finding that O’Dwyer engaged in
the unauthorized practice of law following his
suspension from the Eastern District of
Louisiana. A motion was filed in an O’Dwyer
case under the signature of O’Dwyer’s cousin
who was a lawyer. What evidence supported the
conclusion that O’Dwyer wrote the brief and
forged his cousin’s signature so it could be filed?
One of the most powerful types: a confession.
O’Dwyer admitted in response to an inquiry
from state disciplinary counsel that he had
signed his cousin’s name to the filing. 221 So.3d
at 8. The egregiousness of this conduct,
occurring while O’Dwyer was already subject to
court discipline, speaks for itself. And nothing in
the stacks of paper submitted in this matter
undermines the state court’s conclusion that

19
O’Dwyer engaged in this unauthorized practice.”
(App. 12-13.)
Those totally unwarranted, and false, factual
determinations by the Panel are belied by the
uncontradicted evidence in the underlying disciplinary
case, which would have been readily apparent to the
Panel if its members had actually given intrinsic
consideration to the state record, and listened to the
evidence identified by Respondent at oral argument on
December 4, 2018, and actually considered that
evidence. (App. 56, 77-81,83.)
But Respondent submits that another, even
more egregious “tell-tale” supporting of the conclusion
that no intrinsic consideration of the state record was
performed, is the fact that the Panel took the virtually
unprecedented action of sealing the entire record in
Respondent’s case (App. 55-56, 59, 62-70), which ran
directly contrary to a Fifth Circuit Opinion that had
recently been authored by Panel Member Judge Costa
in the case of BP Exploration & Production
Incorporated v. Claimant ID 100216928, 920 F.3d 209
(5th Cir. 2019), in which he had stated:
“The right to public access ‘serves to promote
trustworthiness of the judicial process, to curb
judicial abuses, and to provide the public with a
more complete understanding of the judicial
system, including a better perception of its
fairness.’ (Citations omitted.) Public confidence
in this courts is the issue: How can the public
know that courts are deciding cases fairly and
impartially if it doesn’t know what is being
decided? In re Hearst Newspapers, L.L.C., 641
F3d 168, 179 (5th Cir. 2011) (discussing the need

20
for ‘openness’ of court proceedings in the
criminal context); In re High Sulfur Content
Gasoline Prods. Liab. Litig., 517 F.3d 220, 230
(5th Cir. 2008) (noting same interest for
attorney’s fee dispute in civil case). Sealing a
record undermines that interest, but shutting
the courthouse door poses an even greater
threat to public confidence in the justice system.
‘Open trials assure the public that procedural
rights are respected, and that justice is afforded
equally. Closed trials breed suspicion of
prejudice and arbitrariness, which in turn
spawns
disrespect for law.’
Richmond
Newspapers, Inc. v. Virginia, 448 U.S. 555, 595
(1980) (Brennan, J., concurring).”
Coupled with the fact that his Panel failed to
address any of his substantive defenses to disbarment
“on the merits,” and that the Panel erroneously
concluded that Respondent committed the crime of
forgery, the sealing of the record caused Respondent to
ask rhetorically, “What was the Panel hiding? Who was
the Panel protecting? What was the Panel covering
up.'?”
With this background, a “revelation” occurred on
September 10, 2020, when Respondent casually read
some “publicity” about Panel Member Stuart Kyle
Duncan, who was being touted as being on the
President Trump’s “short list” for possible nomination
to this Honorable Court. While reading about Judge
Duncan’s background, Respondent first learned about
his long “history” of direct, substantial and extensive
associations and relationships with the State of
Louisiana, with the Louisiana Department of Justice,
with the Office of the Louisiana Attorney General, and

21
with other State entities, cases and individuals.
Although Judge Duncan knows better than anyone else
the details of his history with the State, those currently
known about are summarized in “Respondent’s
Declaration Under Penalty of Perjury.” (App. 34-57.)
Respondent does not wish to substitute the
following summary for the contents of his Declaration,
but Respondent only recently learned information
about Judge Duncan’s undisclosed associations and
relationships with the State between 2008 (when he left
direct employment by the State) and May 2017 (when
he assumed the Federal Bench, following the
confirmation process). Among the conflicts of interests
that Judge Duncan failed to disclose to Respondent are:
1)

The fact that between 2008 and 2012, he
acted as “Solicitor General of the State of
Louisiana,” while in the direct employ of
the Louisiana Department of Justice and
the Louisiana Attorney General, and in
the capacity of “Appellate Chief’ of the
LDOJ, with all of the duties and powers
that those titles entailed, including
representing the interests of the State,
and State entities and individuals, in the
massive KATRINA litigation, inter alia,
in which Respondent had represented
almost 2,000 plaintiffs.

2)

The fact that he represented the State,
and State entities and individuals, in a
plethora of other cases involving issues
inimical to Respondent and his 2,000 or so
KATRINA clients, involving co-counsel

22
who were directly opposed to Respondent
and wanted him disbarred.
3)

The fact that between 2012 (when he left
the state’s direct employ) and May 2017
(when he assumed the Federal Bench),
Judge Duncan and/or his private law firm
“signed six (6) different professional
services contracts with the State of
Louisiana worth more than $843,000,”
calling for the payment of an hourly
billing rate to Judge Duncan of
approximately $385.00 per hour. Indeed,
it appears that while he was in private
practice, the State of Louisiana was one of
Judge Duncan’s “best” clients and,
perhaps, his most financially lucrative
client. (App. 39-40,42, 49.)

In addition to failing to disclose his conflicts of
interests to Respondent, Judge Duncan also failed to
disqualify himself (i.e., he failed to “self-recuse”) from
participating as a decision-maker in Respondent’s case,
after he knew or should have known that his prior
employment by the State of Louisiana, the Louisiana
and Department of Justice, and the Louisiana Attorney
General, and his representation of the State’s interests
as a private attorney, coupled with his knowledge of:
(a)
The State’s involvement in Respondent’s
disbarment;
(b)

The State’s involvement in the corruption
of the “Victims of KATRINA” litigation;
and

23

(c)

The State’s involvement in the events of
September 20,2005,1

all rendered it impossible for Judge Duncan to render
an unbiased and fair and impartial decision.
In
short,
Respondent
has
produced
uncontradicted evidence that during the entire time
period spanning ten (10) years, from 2008 to May 2017,
Judge Duncan’s associations and relationships with the
State were “repeated and significant,” and resulted in
“close business connections” and “significant contact
and business dealings,” giving rise to a “significant
compromising relationships” that were not “trivial,”
“insubstantial” or “tangential, limited, and stale.”
None of Judge Duncan’s currently known
associations and relationships with the State, which
Respondent avers constituted conflicts of interests,
were disclosed to Respondent by Judge Duncan prior to
his participating in this case, which included his
participation at oral argument on December 4, 2018,
and his signing off on the Per Curiam Opinion of May
31,2019.
Following his accidental discovery of Judge
Duncan’s long history with the State on September 10,
2020, Respondent immediately transmitted the
following email to Judge Duncan at the email address
that is identified under his name on the Louisiana State
Bar Association website. The email to Judge Duncan,
asked:
“To: kyle_duncan@ca5.uscourts.gov
1 Being the subject of Case No. 08-30052 on the docket of the U.S.
Court of Appeals for the Fifth Circuit. See also App. 46, 72-73, 8586, 88-89.

24
Subject: Judge Duncan’s Participation in
Fifth District Case No. 18-98009
Dear Sir: I have a few questions:
Why did you not disclose to me your
(1)
prior position as “Chief, Appellate
Division”
of
the
Louisiana
Department of Justice and Office of
the Louisiana Attorney General?
(2)

Why did you not . “self-recuse”
yourself in my case, due to your
conflict of interests and inability to
be unbiased, fair and impartial in
matters involving me?

Ashton O’Dwyer”
No response to the email has been forthcoming
from Judge Duncan.
On November 17, 2020, Respondent filed a
“Motion to Re-Open Case and to Set Aside the Panel’s
May 31, 2019 Per Curiam Opinion in its Entirety.”
(App. 14-33.) Within 24 hours of the filing of that
Motion, the same Panel which had ordered that
Respondent’s name “be removed front the roll of
attorneys admitted to practice in the Fifth Circuit,”
including Judge Duncan, who was the focus of
Respondent’s Motion, summarily ruled against
Respondent, saying simply:
“Before Costa, Willett, and Duncan, Circuit
Judges.
Per Curiam:

25
IT IS ORDERED that the Petitioner’s motion to
reopen the case is DENIED.
IT IS FURTHER ORDERED that the
Petitioner’s motion to vacate the panel’s May 31,
2019, Per Curiam opinion is DENIED.” (App.
108.) '
Following his receipt of the adverse decision,
Respondent filed a “Motion for Reconsideration” (App.
109-119), drawing attention to the fact that, since the
relief which Respondent was seeking involved
undisclosed conflicts of interests by Judge Duncan, for
which the entire Panel was then “on notice,” neither
Judge Duncan nor the other Panel Members should
participate in deciding the Motion for Reconsideration.
However, once again the original Panel, including
Judge Duncan, summarily ordered that:
“Before Costa, Willett, and Duncan, Circuit
Judges.
Per Curiam:
This panel previously DENIED the Petitioner’s
motion to reopen the case and to vacate the
panel’s May 31, 2019, Per Curiam opinion. The
panel has considered Petitioner’s motion for
reconsideration.
IT IS ORDERED that the motion is DENIED.”
(App. 120).

26

In the Motions which Respondent filed in the
Court below, and his Declaration, Respondent
described Judge Duncan’s association and relationships
with the State by using the following talismanic words:
undisclosed
conflicts of interests
direct, extensive and substantial
close business connections
close financial relations
business relationship
prior significant contacts and business dealings
repeated customer
repeated and significant patronage
regular customer
dealing that might create an impression of
possible bias
substantial interest
more than trivial business
significant compromising relationship
a concrete, not speculative impression of bias
not trivial
not insubstantial
not tangential, limited, and stale (App. 36-46, 5153.)

Neither of the most recent Orders issued by
Respondent’s Fifth Circuit Panel provided any
explanation for Judge Duncan’s non-disclosure of his
conflicts of interests or for the Panel’s summary and
repeated use of the word “DENIED.”
This timely Petition for a Writ of Certiorari
followed.

27
REASONS FOR GRANTING THE PETITION
1.
Judge Duncan Failed to Disclose Material
and Relevant Conflicts of Interests to Respondent,
and in so Doing Engaged in Unethical Behavior,
Perhaps Unwittingly.
The undisclosed associations and relationships
between Panel Member Stuart Kyle Duncan and the
State of Louisiana, the Louisiana Department of
Justice, the Office of the Louisiana Attorney General,
and others, are set forth in Respondent’s Declaration.
(App. 34-57.)
Respondent’s discovery of Judge Duncan’s
undisclosed associations and relationships with the
State resulted in Respondent filing a Motion to re-open
his case and to set aside the Panel’s May 31, 2019 Per
Curiam Opinion (App. 14-33), which the Panel,
including Judge Duncan, summarily denied only 24
hours later (App. 108.)
In his Motion, Respondent averred that the
setting aside of the Panel’s Per Curiam Opinion was
mandated by this Court’s decision in Commonwealth
Coatings v. Continental Cas., 393 U.S. 145 (1968),
which vacated an arbitral award where one of the
arbitrators failed to disclose prior “close business
connections” and a “business relationship” with a
“repeated customer,” who gave the arbitrator
“repeated and significant” patronage, but also was
party to the arbitration. A more detailed discussion of
Commonwealth Coatings follows, infra.
Respondent further avers that, by virtue of his
aforesaid conflicts of interests, Judge Duncan should
have disqualified himself in Respondent’s case (i.e., he
should have “self-recused”), which he also did not do.

28
And by failing to disclose his prior associations and
relationships with the State of Louisiana to
Respondent, and by failing to disqualify himself, Judge
Duncan deprived Respondent of the opportunity to
seek Judge Duncan’s disqualification and recusal and,
therefore, violated the following:
1.

Respondent’s absolute entitlement to
procedural and substantive due process
of law and the constitutional right under
the 5th Amendment to have his case
adjudicated by unbiased, unprejudiced
and fair and impartial arbiters of the
facts and the law, without Judge Duncan
on the Panel.

2.

Canon 2 of the Code of Conduct for
United
States Judges
and
the
COMMENTARY which follows the
Canon, which requires respect for and
compliance with law so as to promote
public confidence in the integrity and
impartiality of the judiciary, and which
disallows political, financial or other
relationships to influence judicial conduct
or judgment, and which proscribes
impropriety and the appearance of
impropriety in all activities.

3.

Canon 3 of the Code of Conduct for
United States Judges, which requires
Judges to perform the duties of office
fairly, impartially and diligently, without
bias or prejudice, and more particularly
Canon 3(C)(1), which also imposes an

29
affirmative duty on an Article III Judge
to “disqualify himself or herself in a
proceeding in which the judge’s
impartiality
might
reasonably
be
questioned,” such as in Respondent’s
case. Which specific subparts to Canon 3
were violated by Judge Duncan are
better known to him than to Respondent,
but Respondent avers violation of Canon
3(C)(1)(a) [personal bias]. Respondent
also avers that it is also quite possible
that Judge Duncan violated Canon
3(C)(1)(b), Canon 3(C)(1)(c) [financial
interest in the State’s solvency, or legal
fees earned from his law firm’s
representation of the State, or other
interest
that
could
be
affected
substantially by the outcome], Canon
3(C)(l)(d)(i through iii) [party or acted as
lawyer or known interest that could be
affected substantially by the outcome],
Canon
3(C)(1)(e)
[governmental
employment as counsel or advisor, or
expressed an opinion], as well as Canon
3(D) [remittal of disqualification through
disclosure]. All such information is known
to Judge Duncan, but not to Respondent.
4.

28 U.S.C. §455(b)(l) and (3), due to Judge
Duncan’s actual personal bias and
prejudice in favor of the State or against
Respondent, or both, and possibly having
knowledge of facts concerning the
proceeding or having served
in

30
governmental employment as counsel or
adviser concerning the proceeding.
5.

28 U.S.C. §455(a), which mirrors Canon
3(C)(1),
and
which
requires
disqualification of “[a]ny...judge...of the
United States...in any proceeding in
which his impartiality might reasonably
be questioned,” such as this proceeding.

2.
Commonwealth Coatings Mandates The
Setting Aside Of The Panel’s Per Curiam Opinion
Due To Judge Duncan’s Failure To Disclose
Conflicts Of Interests
Respondent reiterates that the relief which he is
seeking, namely the setting aside of the Panel’s Per
Curiam Opinion of May 31, 2019, and assembling an
unbiased, unprejudiced, and fair and impartial Panel,
which is devoid of any taint and conflicts of interests, in
order to render decision in this case, is mandated by
this Court’s decision in the case of Commonwealth
Coatings v. Continental Cas., 393 U.S. 145 (1968) and
its progeny.
Here, like in Commonwealth Coatings, which
imposed “the simple requirement that arbitrators
disclose to the parties any dealings that might create an
impression of possible bias” or risk “vacation of an
award,” Judge Duncan’s failure to disclose to
Respondent his prior “direct, extensive and
substantial” associations and relationships with the
State of Louisiana, and with State entities, cases and
individuals, must result in the setting aside of the
Panel’s Opinion below. In the words of Justice Black,
“We have no doubt that, if a litigant could show that a

31
foreman of a jury or a judge in a court of justice had,
unknown to the litigant, any such relationship, the
judgment would be subject to challenge.” (Emphasis
supplied.) The term “any such relationship” used by
Justice Black meant “the undisclosed business
relationship” described in detail by Justice Black in the
Commonwealth Coatings decision, which was less
“egregious” than the undisclosed associations and
relationships that Judge Duncan had with the State of
Louisiana in this case. Justice Black went on to say,
“We can perceive no way in which the effectiveness of
the arbitration process will be hampered by the simple
requirement that arbitrators disclose to the parties any
dealings that might create an impression of possible
bias.” Respondent respectfully submits that the same
should be true for Article III Judges in proceedings
such as this one, where, to again quote Justice Black,
“elementary requirements of impartiality [are] taken
for granted.”
Well, not in this case, and certainly not by Judge
Duncan.
Judge Duncan’s prior undisclosed associations,
and relationships with the State, are set forth in detail
in “Respondent’s Declaration” (App. 34-57), and are
much more worthy of disclosure than the undisclosed
“close
business
connections”
between
the
Commonwealth Coatings arbitrator and his “repeated
customer,” who showered the arbitrator with “repeated
and significant” patronage, but was a party to the
arbitration. Even Justice White clearly stated in his
concurring opinion, “But it is enough for present
purposes to hold, as the Court does, that where the
arbitrator has a substantial interest in a firm which has
done more than trivial business with a party, that fact
must be disclosed.”

32

Respondent submits that in no sense can Judge
Duncan’s prior undisclosed
associations
and
relationships with the State be categorized as “trivial”
or “insubstantial.” To the contrary, the available
evidence overwhelmingly shows that they were
“direct, extensive and substantial,” and that they stood
the test of time, commencing in 2008, when Judge
Duncan went to work for the State, enduring until ten
(10) years later, when Judge Duncan assumed the
Federal Bench in May 2017.
In partial justification for vacating the arbitral
award in Commonwealth Coatings, Justice Black cited
“that part of the 33rd Canon of Judicial Ethics” then-ineffect, which provided: “...[A judge] should, however, in
pending or prospective litigation before him, be careful
to avoid such action as may reasonably tend to awaken
the suspicion that his social or business relations or
friendships constitute an element in influencing his
judicial conduct.”2 Justice Black went on to say, “This
rule of arbitration and this canon of judicial ethics rest
on the premise that any tribunal permitted by law to
try cases and controversies not only must be unbiased,
but also must avoid even the appearance of bias.” And
Respondent submits that no matter what ethical
“Standards of Behavior” may apply to arbitrators
versus Article III Judges, like Judge Duncan,
particularly with respect to the standard to be applied
to “disclosure” of
conflicts of interests, to
“disqualification,” or to both, Commonwealth Coatings
makes clear that Judge Duncan should be held to an
equal, or even higher, standard than arbitrators.
Respondent reavers that Justice Black made that fact
2 Former Canon 33 mirrors the current language of Canon 2, as
well as the COMMENTARY following Canon 2.

33

abundantly clear when he said, “We have no doubt that,
if a litigant could show that...a judge in a court of
justice had, unknown to the litigant, any such
relationship [as the one existing between the party in
Commonwealth Coatings], the judgment would be
subject to challenge.” And in his concurring opinion,
Justice White said, “The Court does not decide today
that arbitrators are to be held to the standards of
judicial decorum of Article III Judges, or indeed of any
judges,” language which Respondent avers clearly
indicates that Justice White believed an Article III
Judge like Judge Duncan would be held to a higher
standard than the standard applicable to an arbitrator,
whose arbitral award the Commonwealth Coatings
Court vacated for non-disclosure.
This same subject (i.e., whether the applicable
disclosure standard may be more rigorous for
arbitrators than for Article III Judges) was addressed
by Judge Reavley in his dissent in Positive Software
Solutions, Inc. v. New Century Mortgage Corporation,
476 3d, 278 (5th Cir. 2007), where he interpreted Justice
White's plain language in his Commonwealth Coatings
concurring opinion as follows:
“...even though Justice White ‘does not
expressly define the standard that should govern
arbitrator conduct, his opinion only makes it
clear that...arbitrators will be governed by a
standard less than the standard governing
judges.’ Elizabeth A. Murphy, Note, Standards
of Arbitrator Impartiality: How Impartial Must
They Be? 1996 J. DISP. RESOL. 463, 470.”
(Emphasis added.)

34
Respondent submits that the Article III Judge
involved in this case, Stuart Kyle Duncan, like the
arbitrator in Commonwealth Coatings, should have
disclosed to Respondent his “substantial compromising
relationship” with the State, and that the setting aside
of the Panel’s Per Curiam Opinion must result from his
failure to meet the standard for disclosure applicable to
Article III Judges.
Summarizing,
Respondent has produced
evidence that during the entire time period spanning
ten (10) years, from 2008 to May 2017, Judge Duncan’s
associations and relationships with the State were
“repeated and significant” and resulted in “close
business connections,” and “significant contact and
business dealings,” giving rise to a “significant
compromising relationship” that was not “trivial,”
“insubstantial” or “tangential, limited, and stale” (App.
37, 38-46, 51-53), requiring that the Per Curiam Opinion
should be set aside due to Judge Duncan’s non­
disclosure, if the Rule of Commonwealth Coatings,
supra, is to be followed, for as Justice White stated in
his Commonwealth Coatings concurring opinion:
“But it is enough for present purposes to hold, as
the Court does, that where the arbitrator has
substantial interest in a firm which has done
more than trivial business with a party, that fact
must be disclosed.”

35
3.
Judge Duncan’s Misconduct in Failing to
Disclose Conflicts of Interests is Bad Enough, but
Respondent Avers that Judicial Misconduct on the
Fifth Circuit Bench Runs Much Deeper Than Just
Judge Duncan.
The filing of Respondent’s “Motion to Re-Open
Case” put Judge Duncan (and the entire Panel) “on
notice” that the subject matter of Respondent’s Motion
was “undisclosed conflicts of interest” on Judge
Duncan’s part. Respondent maintains that that fact
alone should have disqualified Judge Duncan from
participating any further in this case. Accordingly,
Respondent was more than “just a little” surprised
when Judge Duncan’s name appeared on the summarily
issued “...motion to reopen the case is DENIED” Order
that emanated from the Panel within 24 hours of the
Motion being filed. And the said Order did not provide
Respondent with any insight as to why Judge Duncan
had failed to disclose his conflicts of interests to
Respondent. Nor did it address any of the consequences
that this Court has said must flow therefrom under
Commonwealth Coatings.
The lack of any meaningful “communication”
from Judge Duncan and the Panel put Respondent at a
disadvantage, because Respondent simply does not
know what “may be in Judge Duncan’s head.” The
complete depth, breadth and scope of Judge Duncan’s
associations and relationships with the State of
Louisiana, and with State entities, cases and
individuals, since 2008, are known to and can be
attested to by Judge Duncan better than by anyone
else. Nevertheless, it is evident that Judge Duncan has,
since 2008, dutifully served, as his “Lord and Master,”
the State of Louisiana, upon whose good graces he was

36

virtually totally dependent for his livelihood until May
2017, when he assumed the Federal Appellate Bench.
Judge Duncan knows what cases he handled
and/or supervised for the State, the names of those
cases, the identities of the parties, and the nature of the
issues in those cases. Judge Duncan knows what
KATRINA cases he handed or supervised, and the
issues that were litigated in those cases. He knows
whether he had ever heard of Respondent prior to this
case, and whether he ever discussed Respondent or any
of his litigation or disbarment proceedings with
colleagues within the Louisiana Department of Justice,
the Office of the Attorney General or any other State
entity, or with anyone else. Judge Duncan also knows
whether he might harbor any bias or prejudice in favor
of his former employer and client, the State, or against
Respondent, even “unconscious bias.” And Judge
Duncan knows why he failed to make disclosure in this
case, and why he failed to disqualify himself, perhaps
because “the most biased judges [are] the least willing
to withdraw.” See John Leubsdorf, Theories of Judging
and Judge Disqualification, 62 N.Y.U.L. Rev. 237, 245
(1987).
It is readily apparent from Judge Duncan’s
responses to Senators during his confirmation process
demonstrated that he contemplated both “disclosure”
and possible “disqualification,” once he was on the
Federal Bench, particularly in cases that might involve
the State of Louisiana (App. 47-48). Why Judge Duncan
did neither in this case is unknown.
Respondent avers that the fact that Judge
Duncan failed to disclose his associations and
relationships with the State gave rise to, in reasonable
minds, “a concrete, not speculative impression of bias.”

37

Respondent maintains that, at the very least,
Judge Duncan’s personal interest in this case, which
placed his own undisclosed conflicts of interests “front
and center,” should have disqualified him from acting
further in Respondent’s case pursuant to a Rule that
fair tribunals must follow, recently reinforced in
Williams v. Pennsylvania, 136 S.Ct. 1899 (2016), which
held:
“Due process guarantees ‘an absence of actual
bias’ on the part of a judge. In re Murchison, 349
U.S. 133,136, 75 S.Ct. 623, L.Ed. 942 (1955). Bias
is easy to attribute to others and difficult to
discern in oneself. To establish an enforceable
and workable framework, the Court’s precedents
apply an objective standard that, in the usual
case, avoids having to determine whether actual
bias is present. The Court asks not whether a
judge' harbors an actual, subjective bias, but
instead whether, as an objective matter, ‘the
average judge in his position’ is ‘likely’ to be
neutral, or whether there is an unconstitutional
‘potential for bias’. Caperton, 556 U.S., at 881,
129 S.Ct. 2252. Of particular relevance to the
instant case, the Court has determined that an
unconstitutional potential for bias exists when
the same person serves as both accuser and
adjudicator in a case. See Murchison, 349 U.S.,
at 136-137, 75 S.Ct. 623. This objective risk of
bias is reflected in the due process maxim that
‘no man can be a judge in his own case and no
man is permitted to try cases where he has an
interest in the outcome.’ Id., at 136, 75 S.Ct.
623.” (Emphasis supplied.)

38
Applying the objective test to Judge Duncan’s
undisclosed conflicts of interests, coupled with his
continued participation in deciding Respondent’s
Motion to Re-Open the Case, and Respondent’s Motion
for Reconsideration (App. 108, 120), resulted in the
likelihood or appearance for bias rising to an
unconstitutional level. Peters v. Kiff, 407 U.S. 495, 502
(1972). Indeed, the fact that Judge Duncan failed to
make proper disclosure to Respondent, and concealed
from Respondent information about his multiple direct,
extensive and substantial associations and relationships
with the State of Louisiana, brings to mind the words of
Fifth Circuit Judge Jacques Weiner in his dissent in
Positive Software Solutions, Inc. v. New Century
Mortgage Corporation, 376 F.3d 278 (5th Cir. 2007),
namely: “But Shurn’s very act of preemptively
deciding, solely on his own, that his relationship with
council for New Century need not be disclosed and then
withholding that information conveys an unmistakable
appearance of impropriety,” 376 F.3d at 293.
And because Respondent avers that “whatever”
may have motivated Judge Duncan’s failure to disclose
his conflicts of interests with the State indubitably
stemmed from relationships that began to be forged as
early as 2008, Judge Duncan’s bias and prejudice, actual
or likely (but reasonably “plausible” under the
circumstances), was “extra-judicial.” Liteky v. United
States, 510 U.S. 540 (1994).
Unfortunately, this concrete, not speculative
impression of bias also extends to Judge Duncan’s
brethren on the Panel, Judges Costa and Willett. More
particularly, Respondent avers that these other Panel
Members were also corrupted, tainted and polluted by
permitting Judge Duncan’s continued participation in
the case once they were “on notice” that Respondent

39
was claiming that Judge Duncan had failed to disclose
conflicts of interests to Respondent. Judges Costa and
Willett were put on notice by virtue of the contents of
Respondent’s “Motion to Re-Open Case, etc.,” as well
as by the contents of “Respondent’s Rule 27.4
Certificate of Interested Persons and Entities” (App.
14-33, 100-105), which was filed on November 27, 2020,
along with Respondent’s Motion.3 The Certificate
clearly reflects that “These representations are made in
order that the Judges of this Court may evaluate
possible disqualifications or recusal.”
The “response” by Judges Costa and Willet (as
well as Judge Duncan) to being placed “on notice” of
Judge Duncan’s undisclosed conflicts of interests was to
summarily deny Respondent’s Motion to Re-Open Case,
as well as his Motion for Reconsideration, without any
written reasons, and to allow Judge Duncan’s
participation in both decisions notwithstanding the fact
that Respondent had squarely placed Judge Duncan’s
conduct at issue by virtue of his non-disclosed conflicts
of interests (App. 108,109-119,120.)
Judges Costa, Willett and Duncan were
members of the very same Panel which:
1.

SEALED
the
entire
record
in
a
virtually
Respondent’s
CclSGj
unprecedented action which ran directly
contrary to the Fifth Circuit Opinion
which had been only recently authored by
Judge Costa in the case of BP
Exploration & Production Incorporated
v. Claimant ID 1002^6928, 920 F.3d 209

3 Another such Certificate also was filed simultaneously with
Respondent’s “Motion for Reconsideration.”

40
(5th Cir. 2019), and which prompted
Respondent to ask rhetorically: “Does the
actual bias and prejudice run deeper than
just Judge Duncan? What is the Panel
hiding? Who is the Panel protecting?
What is the.Panel covering up?”
2.

Failed to address, even in cursory fashion,
any of Respondent’s Affirmative Defenses
to his disbarment in the Federal or State
disciplinary
See
proceedings.
Respondent’s “Motion to Unseal the
Record” (App. 69-76, 85-99) and his
“Declaration Under Penalty of Perjury.”
(App. 56.) Respondent’s Motion was
summarily denied without any written
reasons.

3.

Made a false finding “on-the-record” in
the Per Curiam Opinion, even going so far
as to falsely and maliciously accuse
Respondent of the crime of forgery by
forging his cousin’s .signature on a
pleading, which was the “linchpin” of the
Panel’s (and the Louisiana Supreme .
Court’s) erroneous conclusion that
Respondent had engaged in the
unauthorized practice of law while under
suspension. (App. 56, 77-81, 83.)

By joining their Brother-on-the Federal-Bench,
Judge Duncan, in improviclently sealing the record,
failing to address material issues, and making blatantly
false statements “on-the-record,” Respondent avers
that it is entirely plausible for reasonable minds to

41
conclude that something other than “truth, justice and
the American way” was at work in this case.
Accordingly, Respondent avers that by allowing
Judge
Duncan’s
continued
participation
in
Respondent’s case, and by continuing to participate in
the case themselves, Judges Costa and Willett became
Judge Duncan’s all-too-willing “partners in crime,” and
actually joined in Judge Duncan’s unethical behavior. In
so doing, Respondent avers that Judges Duncan Costa
and Willett ran afoul of Williams v. Pennsylvania, 136
S.Ct. 1899 (2016), and cases cited therein.
Williams is important, not only because it stands
for the proposition that a constitutional violation of a
due process right by one Judge on a Panel of three
Judges cannot constitute “harmless error,” but because
it implicitly recognizes the truth of the proverb: “One
bad apple spoils the whole barrel.” The Williams Court
expressed this concept much more eloquently than
Respondent could ever hope to do by saying:
“The Court has little trouble concluding that a
due process violation arising from the
participation of an interested judge is a defect
“not amenable” to harmless-error review,
regardless of whether the judge’s vote was
dispositive. Puckett v. United States, 556 U.S.
129, 141, 129 S.Ct. 1423, 173 L.Ed.23 266 (2009)
(emphasis deleted). The deliberations of an
appellate panel, as a general rule, are
confidential. As a result, it is neither possible nor
productive to inquire whether the jurist in
question might have influenced the views of his
or her colleagues during the decision-making
processing. Indeed, one purpose of judicial
confidentiality is to assure jurists that they can

42
reexamine old ideas and suggest new ones, while
both seeking to persuade and being open to
persuasion by their colleagues. As Justice
Brennan wrote in his Lavoie concurrence,
‘The description of an opinion as being [for
the court] connotes more than merely that
the opinion has been joined by a majority
of the participating judges. It reflects the
fact that these judges have exchanged
ideas and arguments in deciding the case.
It reflects the collective process of
deliberation which shapes the court’s
perceptions of which issues must be
addressed and, more importantly, how
they must be addressed. And, while the
influence of any single participant in this
process can never be measured with
precision, experience teaches us that each
member’s involvement plays a part in
shaping the court’s ultimate disposition.”
475 U.S., at 831,106 S.Ct. 1580.
“These considerations illustrate, moreover, that
it does not matter whether the disqualified
judge’s vote was necessary to the disposition of
the case. The fact that the interested judge’s vote
was not dispositive may mean only that the judge
was successful in persuading most members of
the court to accept his or her position. That
outcome does not lessen the unfairness to the
affected party. See id., 15 831-832, 106 S.Ct. 1580
(Blackmun, J., concurring in judgment).

43
“A multimember court must not have its
guarantee of neutrality undermined, for the
appearance of bias demeans the reputation and
integrity not just of one jurist, but of the larger
institution of which he or she is a part. An
insistence on the appearance of neutrality is not
some artificial attempt to mask imperfection in
the judicial process, but rather an essential
means of ensuring the reality of a fair
adjudication. Both the appearance and reality of
impartial justice are necessary to the public
legitimacy of judicial pronouncements and thus
to the role of law itself. When the objective risk
of actual bias on the part of a judge rises to an
unconstitutional level, the failure to recuse
cannot be deemed harmless.”
Separate and apart from whatever “influence”
their “bad-apple” Panel Brother may had on them,
Respondent also does not know what Judges Costa and
Willett “knew or didn’t know,” and “when.” Respondent
does not know precisely when they acquired knowledge
of Judge Duncan’s undisclosed associations and
relationships with the State of Louisiana. Did they have
such knowledge when they were assigned to the Panel
in 2018? Did they acquire that knowledge at some later
date, independently of what they may have been
informed about by Respondent?
But what Respondent does know is that Judges
Costa and Willett, like Judge Duncan, remained
completely silent, even after they had become familiar
with the contents of Respondent’s Motion to Re-Open
Case, etc., with Respondent’s Declaration, and with
Respondent’s Motion for Reconsideration (App. 14-33,
34-57, 109-119), remaining silent, while “circling the

44
wagons” around their Brother Judge.4 They then ruled
against Respondent, in Judge Duncan’s “favor,” in
Orders that were issued summarily, without any
explanation or written reasons. Respondent avers that
such conduct renders Judges Costa and Willett equally
as guilty of unethical behavior as Judge Duncan.
CONCLUSION
To recapitulate, Respondent respectfully
submits that the decision of This Honorable Court in
Commonwealth Coatings mandates that the Panel’s
Per Curiam Opinion should be set aside because of
Judge Duncan’s failure to disclose conflicts of interests
to Respondent, namely his direct, extensive and
substantial associations and relationships with the
State of Louisiana, which not only disbarred
Respondent, but which has been Respondent’s
“nemesis” for the past 15- years. These undisclosed
associations and relationships constituted “a
substantial compromising relationship,” which Judge
Duncan should have disclosed. Non-disclosure gave
rise to, in reasonable minds, “a concrete, not
speculative impression of bias.” The very fact of Judge
Duncan’s non-disclosure, for whatever reason, requires
that the Per Curiam Opinion should now be set aside in
accordance the with Commonwealth Coatings
mandate. For all of the reasons identified herein, a
Writ of Certiorari should issue to review the Orders of
the United States Court of Appeals for the Fifth
Circuit, with instructions to vacate the May 31, 2019
Per Curiam Opinion, with the entire matter being
4 They also ignored, again, the detailed contents of Respondent’s
“Motion to Unseal the Record.” (App. 58-99.)

45
remanded to the Fifth Circuit for reconsideration by
an unbiased and unprejudiced, fair and impartial Panel
of Judges.
Respectfully submitted,
ASHTON R. O’DWYER, JR.
Pro se
1116 Monticello Avenue
Jefferson, Louisiana 70121
Telephone Number:(504) 812-9185
arodjrlaw@aol.com

